                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: I02060018
                                                                                11           Page 1 of 1



      On June 6,2002, we received an allegation that a bioengineerl failed to disclose a financial
      conflict of interest2in his NSF proposal3. We determined that the allegation reflected a
      misunderstanding of NSF policy: investigators are neither required nor expected to disclose
      financial conflicts of interest to NSF. Rather, financial disclosures are made to institutions. In the
      event that a proposal is funded, the institution must satisfactorily manage, reduce or eliminate
      any identified conflicts of interest prior to the expenditure of any funds under the award, or else
      disclose the conflicts to NSF.

      In the event of an award, the institution is required to review the PI'S financial disclosures,
      determine whether conflicts exist, and take appropriate action. We have no reason to believe that
      the institution will fail to do so. Accordingly, this case is closed.




      ' [redacted]
       [redacted]
       [redacted]


                          Agent                   Attorney                Supervisor                  AIGI

  Sign / date
